CERTIFICATE OF COMPLIANCE
Case No. 19-123
Caption: Sharonell Fulton, et al. v. City of
Philadelphia, et al.
As required by Supreme Court Rule 33.1(h),
I certify that the document contains 4,208 words,
excluding the parts of the document that are
exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on August 26, 2020.

1ZA
min Misser
Record Press, Inc.

Sworn to before me on
August 26, 2020
ALESSANDRA KANE
Notary Public, State of New York
No. 01KA6340521
Qualified in Richmond Co ty
4
Co 'sission Expir s April 1

Notary Public

